                                                                               1




                                                 NATIONAL SCIENCE FOUNDAT

                                                    OFFICE OF INVESTIGATIONS

                                           CLOSEOUT MEMORANDUM




         The Office of Inspector General (OIG) received an allegation concerning the submission bf a
         false court document to management. It was alleged that an employee1asked a colleague2to
         manufacture a document3in order to justify the subject's absence from duty. When the colleague
         declined to do so, the employee manufactured the document and submitted it to the supervisor4.

         OIG contacted the court and was informed that the employee was not called for jury duty! All
         information provided was reviewed and all parties were interviewed. Based on the infoAation
         received fiom the court, interviews, and other information gathered during this investigation,
         OIG concluded that the subject manufactured the jury duty notice and intentionally submitted it
         to receive salary for the day but did not work. The subject refused to admit or accept any
         responsibility regarding the preparation and submission of the fraudulent document.     1
         OIG recommended that the subject's division take appropriate action against the subject for her
         involvement in the preparation and submission of the false jury duty notice. The employee was
         terminated effective                  . Accordingly, this case is closed.




           PG County Jury Duty Notice




NSF OIG Form 2 (1 1/02)
